OIG FREEDOM OF INFORMATION ANNUAL REPORT — FY 2013
I. BASIC INFORMATION REGARDING REPORT
   1. Name, title, address, and telephone number of person(s) to be contacted with
      questions about the Report.
              Robin Brooks
              Director, Freedom of Information/Privacy Acts Division,
              Office of Inspector General
              United Sates Department of Health and Human Services
              330 Independence Ave SW, Suite 1062
              Washington D.C. 20201
              (202) 619-2541


   2. ELECTRONIC ADDRESS FOR THIS REPORT ON THE WORLD WIDE WEB:
      http://oig.hhs.gov/foia/


   3. ADDRESS FOR PAPER COPIES OF THIS REPORT
      Contact Robin Brooks at the address or telephone number listed above, or the link shown:
      http://oig.hhs.gov/foia/


II. HOW TO MAKE A FOIA REQUEST
   Brief description of why some requests are not granted: Documents requested were protected
   by an exemption and release would have caused harm to the interest protected by the
   exemption. Information withheld may include home addresses and phone numbers, social
   security numbers, medical records, proprietary business records, investigatory records, that if
   released may interfere with open investigations, and drafts of documents.

   Requests may be submitted electronically at: http://www.hhs.gov/foia/request/index.html
              Office of Inspector General (OIG)
              Freedom of Information Officer
              Cohen Building, Suite 1062
              330 Independence Ave, S.W.
              Washington, D.C. 20201
              Phone: 202-619-2541




Freedom of Information Annual Report — FY 2013                                                   1
III. ACRONYMS, DEFINITIONS, AND EXEMPTIONS:
    1. Agency-specific acronyms or other terms:
           HHS - U.S. Department of Health and Human Services
           OPDIVs - Operating Divisions of HHS
           OS - Office of the Secretary, HHS
           OASPA - Office of the Assistant Secretary for Public Affairs, HHS
           ACL- Administration for Community Living
           ACF - Administration for Children and Families
           AHRQ - Agency for Healthcare Research and Quality
           ATSDR - Agency for Toxic Substances and Disease Registry
           CDC - Centers for Disease Control and Prevention
           FDA - Food and Drug Administration
           HRSA - Health Resources and Services Administration
           IHS - Indian Health Service
           NIH - National Institutes of Health
           OIG – Office of the Inspector General
           OPHS - Office of Public Health and Science
           PHS - Public Health Service
           PRO - Professional Review Organization
           PSC - Program Support Center
           SAMHSA - Substance Abuse and Mental Health Services Administration
    2. Basic terms (from FOIA UPDATE, Summer 1997):
           a. Administrative Appeal – a request to a federal agency asking that it review at a
              higher administrative level a FOIA determination made by the agency at the
              initial request level.
           b. Average Number – the number obtained by dividing the sum of a group of
              numbers by the quantity of numbers in the group. For example, of 3, 7, and 14,
              the average number is 8.
           c. Backlog – the number of requests or administrative appeals that are pending at an
              agency at the end of the fiscal year that are beyond the statutory time period for a
              response.
           d. Component – for agencies that process requests on a decentralized basis, a
              “component” is an entity, also sometimes referred to as an Office, Division,
              Bureau, Center, or Directorate, within the agency that processes FOIA requests.
              The FOIA now requires that agencies include in their annual report data for both
              the agency overall and for each principal component of the agency.

 Freedom of Information Annual Report — FY 2013                                                  2
         e. Consultation – the procedure whereby the agency responding to a FOIA request
            first forwards a record to another agency for its review because that agency has an
            interest in the document. Once the agency in receipt of the consultation finishes
            its review of the record, it responds back to the agency that forwarded it. That
            Agency, in turn, will then respond to the FOIA requester.
         f. Exemption 3 Statute – a federal statute that exempts information from disclosure
            and which the agency relies on to withhold information under subsection (b)(3) of
            the FOIA.
         g. FOIA Request – a FOIA request is generally a request to a federal agency for
            access to records concerning another person (i.e., a “third-party” request), or
            concerning an organization, or a particular topic of interest. FOIA requests also
            include requests made by requesters seeking records concerning themselves (i.e.,
            “first-party” requests) when those requesters are not subject to the Privacy Act,
            such as non-U.S. citizens. Moreover, because all first-party requesters should be
            afforded the benefit of both the access provisions of the FOIA as well as those of
            the Privacy Act, FOIA requests also include any first-party requests where an
            agency determines that it must search beyond its Privacy Act “systems of records”
            or where a Privacy Act exemption applies, and the agency looks to FOIA to
            afford the greatest possible access. All requests which require the agency to
            utilize the FOIA in responding to the requester are included in this Report.
            Additionally, a FOIA request includes records referred to the agency for
            processing and direct response to the requester. It does not, however, include
            records for which the agency has received a consultation from another agency.
            (Consultations are reported separately in Section XII of this Report.)
         h. Full Grant - an agency decision to disclose all records in full in response to a
            FOIA request.
         i. Full Denial - an agency decision not to release any records in response to a FOIA
            request because the records are exempt in their entireties under one or more of the
            FOIA exemptions, or because of a procedural reason, such as when no records
            could be located.
         j. Median Number - Median Number – the middle, not average, number. For
            example, of 3, 7, and 14, the median number is 7.
         k. Multi-Track Processing – a system in which simple requests requiring relatively
            minimal review are placed in one processing track and more voluminous and
            complex requests are placed in one or more other tracks. Requests granted
            expedited processing are placed in yet another track. Requests in each track are
            processed on a first in/first out basis.
                  (A) Expedited Processing – an agency will process a FOIA request on an
                      expedited basis when a requester satisfies the requirements for expedited
                      processing as set forth in the statute and in agency regulations.
                  (B) Simple Request – a FOIA request that an agency using multi-track
                      processing places in its fastest (non-expedited) track based on the low
                      volume and/or simplicity of the records requested.


Freedom of Information Annual Report — FY 2013                                                  3
                   (C) Complex Request – a FOIA request that an agency using multi-track
                       processing places in a slower track based on the high volume and/or
                       complexity of the records requested.
          l. Partial Grant/Partial Denial – in response to a FOIA request, an agency
             decision to disclose portions of the records and to withhold other portions that are
             exempt under the FOIA, or to otherwise deny a portion of the request for a
             procedural reason.
          m. Pending Request or Pending Administrative Appeal – a request or
             administrative appeal for which an agency has not taken final action in all
             respects.
          n. Perfected Request – a request for records which reasonably describes such
             records and is made in accordance with published rules stating the time, place,
             fees (if any) and procedures to be followed.
          o. Processed Request or Processed Administrative Appeal – a request or
             administrative appeal for which an agency has taken final action in all respects.
          p. Range in Number of Days – the lowest and highest number of days to process
             requests or administrative appeals.
          q. Time Limits – the time period in the statute for an agency to respond to a FOIA
             request (ordinarily twenty working days from receipt of a perfected FOIA
             request).
   3. Concise descriptions of the nine FOIA exemptions:
          a. Exemption 1: classified national defense and foreign relations information
          b. Exemption 2: internal agency rules and practices
          c. Exemption 3: information that is prohibited from disclosure by another federal
             law
          d. Exemption 4: trade secrets and other confidential business information
          e. Exemption 5: inter-agency or intra-agency communications that are protected by
             legal privileges
          f. Exemption 6: information involving matters of personal privacy
          g. Exemption 7: records or information compiled for law enforcement purposes, to
             the extent that the production of those records
                   (A) could reasonably be expected to interfere with enforcement proceedings,
                   (B) would deprive a person of a right to a fair trial or an impartial
                       adjudication,
                   (C) could reasonably be expected to constitute an unwarranted invasion of
                       personal privacy,
                   (D) could reasonably be expected to disclose the identity of a confidential
                       source,


Freedom of Information Annual Report — FY 2013                                                   4
                  (E) would disclose techniques and procedures for law enforcement
                      investigations or prosecutions, or would disclose guidelines for law
                      enforcement investigations or prosecutions, or
                  (F) could reasonably be expected to endanger the life or physical safety of
                      any individual
         h. Exemption 8: information relating to the supervision of financial institutions
         i. Exemption 9: geological information on wells




Freedom of Information Annual Report — FY 2013                                                  5
IV. EXEMPTION 3 STATUTES
                                                                Number of
                                                                Times
                                                                Relied upon    Total Number
                     Type of Information                        per           of Times Relied
 Statute             Withheld                Case Citation      Component     upon by Agency
 Inspector General   Complaints by           None
 Act of 1978 (Pub.   Employees;
                                                                     3              3
 L. 95-452), §7      Disclosure of Identity;
                     Reprisals
 18 U.S.C. §         Federal Victim’s        Tampico v.
 3509(d)             Protection and Rights   EOUSA, No. 04-
                                                                     1              1
                     Act                     2285, slip op.at
                                             8
 42 U.S.C. § 262a    Select Agent            None
                                                                     5              5
                     Information
 Rule 6(e)           Grand Jury Records      Sussman v.
 Federal                                     USMS,
 Rules of                                    494 F.3d                1              1
 Criminal                                    1106, 1113
 Procedure                                   (D.C. Cir. 2007)




 Freedom of Information Annual Report — FY 2013                                            6
V. FOIA Requests
   A. Received, Processed, and Pending FOIA Requests
                   Number of                                                       Number of
                   Requests               Number of           Number of            Requests
                   Pending as of          Requests            Requests             Pending as of
                   Start of Fiscal        Received in         Processed in         End of Fiscal
                   Year                   Fiscal Year         Fiscal Year          Year
OIG                                  18                 714                  726                   6




Freedom of Information Annual Report — FY 2013                                                     7
         B. (1) Disposition of all FOIA Requests – All Processed Requests
                              Number of Full Denials Based on Reasons Other than Exemptions
        Number                          All
        of        Number of             Records                                          Improper
        Partial   Full                  Referred to                         Records      FOIA                       Other
Number Grants/    Denials               another               Fee-          not          Request   Not              “Explain
of Full Partial   Based on   No         Component Request     Related       Reasonably   for Other Agency Duplicate in chart
Grants  Denials   Exemptions Records    or Agency   Withdrawn Reason        Described    Reason    Record Request   below”   Total
 146       98        118        106         16           47         5           6          62       77       21        24       726




   Freedom of Information Annual Report — FY 2013                                                                           8
      B. (2) Disposition of FOIA Requests – Other Reasons for “Full Denials Based on
      Reasons Other than Exemptions” from Section V, B (1)
                             Description of “Other”
                             Reasons for Denials from
                             Chart B (1) & Number of
                             Times Those Reasons Were
Component                    Relied upon                              TOTAL
OIG                          Administratively closed; failed            20
                             to respond to still interested
                             memo
                             Records on website                          4




Freedom of Information Annual Report — FY 2013                                         9
      B. (3) Disposition of FOIA Requests - Number of times exemptions applied

                                                        Ex.     Ex.      Ex.     Ex.    Ex.    Ex.    Ex.
            Ex. 1   Ex.2   Ex.3   Ex.4   Ex.5    Ex.6   7(A)    7(B)     7(C)    7(D)   7(E)   7(F)   8     Ex. 9
OIG           0      1      10     81     62      187     80       1       162     0      24     0     0      0




Freedom of Information Annual Report — FY 2013                                                                10
VI. ADMINISTRATIVE APPEALS OF INITIAL DETERMINATIONS OF FOIA
     REQUESTS
       A. Received, Processed, and Pending Administrative Appeals
                                                                             Number of
                 Number of                               Number of           Appeals
                 Appeals Pending        Number of        Appeals             Pending as of
                 as of Start of         Appeals Received Processed in        End of Fiscal
                 Fiscal Year            in Fiscal Year   Fiscal Year         Year
 OIG                        0                  0                 0                   0




       B. Disposition of Administrative Appeals – All Processed Appeals
                           Number Partially                             Number of
            Number         Affirmed &                                   Appeals
            Affirmed       Partially         Number Completely          Closed for
            on             Reversed/Remanded Reversed/Remanded          Other
            Appeal         on Appeal         on Appeal                  Reasons      TOTAL
 OIG            0                   0                    0                   0           0




       C. (1) Reasons for denial on Appeal – Number of Times Exemptions applied

          Ex. Ex. Ex.        Ex.    Ex. Ex.   Ex. Ex. Ex. Ex. Ex. Ex. Ex. Ex.
          1   2   3          4      5   6     7(A) 7(B) 7(C) 7(D) 7(E) 7(F) 8 9
 OIG       0    0      0        0   0    0     0     0       0   0       0       0   0       0




 Freedom of Information Annual Report — FY 2013                                              11
            C. (2) Reasons for denial on Appeal – Reasons other than exemptions
                                                                                                  Appeal
                                                                                                  Based
                                                                                                  Solely on
                     Records                                 Improper                             Denial of    Other
                     Referred                     Records    Request         Duplicate            Request      Explain
                     at Initial           Fee-    Not        For      Not    Request   Request    For          in
             No      Request Request      Related Reasonably Other    Agency Or        In         Expedited    Chart
             Records Level      Withdrawn Reason Described   Reasons  Record Appeal    Litigation Processing   Below
OIG             0         0           0          0           0           0        0   0     0          0            0




      Freedom of Information Annual Report — FY 2013                                                           12
      C. (3) Reasons for denial on Appeal – Other:
             Description of “Other” Reasons for Denial on Appeal
             from Chart C (2) & Number of Times Those Reasons
             Were Relied upon                                       TOTAL
OIG                        None                                             0




      C. (4) Response time for administrative appeals (See chart)
               Median Number      Average            Lowest Number    Highest Number
               of Days            Number of Days     of Days          of Days
OIG                    0                  0                  0                  0




Freedom of Information Annual Report — FY 2013                                      13
      C. (5) Ten Oldest Pending Appeals (See Chart)
                   10th
                   Oldest                                                                                     Oldest
                   Appeal    9th       8th        7th       6th       5th       4th       3rd       2nd       Appeal
         Date of      0            0         0          0         0         0         0         0         0     0
         Receipt
         of Ten
         Oldest
         Appeals
         Number
         of Days
         Pending




Freedom of Information Annual Report — FY 2013                                                                      14
VII. FOIA REQUESTS: RESPONSE TIME FOR PROCESSED AND PENDING REQUESTS
      A. Processed Requests – Response Time for All Perfected Requests
          Simple                                  Complex                          Expedited Processing
          Median Average Lowest Highest Median Average Lowest Highest Median Average Lowest Highest
          Number Number Number Number Number Number Number Number Number Number Number Number
          of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days
OIG           2         4        1         20        9         23        1   277      0         0         0        0




 Freedom of Information Annual Report — FY 2013                                                               15
         B. Processed Requests – Response Time for Perfected Requests in Which Information Was Granted
             Simple                                    Complex                            Expedited Processing
             Median Average Lowest Highest Median Average Lowest Highest Median Average Lowest Highest
             Number Number Number Number Number Number Number Number Number Number Number Number
             of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days of Days
OIG              3         4        1         19         23      37       1        277        0          0       0        0




      Freedom of Information Annual Report — FY 2013                                                                 16
   C. Processed Requests – Response Time in Day Increments
      1.   Simple Requests
                                 41–    61–      81-    101-   121-   141-   161-   181-   201-   301-
                1–20    21-40    60     80       100    120    140    160    180    200    300    400    401+
                Days    Days     Days   Days     Days   Days   Days   Days   Days   Days   Days   Days   Days   TOTAL
OIG               453        0    0      0        0      0      0      0      0      0      0      0      0      453




Freedom of Information Annual Report — FY 2013                                                                         17
      2.   Complex Requests
                                      81-        101-   121-   141-   161-   181-   201-   301-
           1–20   21-40   41–60 61–80 100        120    140    160    180    200    300    400    401+
           Days   Days    Days Days Days         Days   Days   Days   Days   Days   Days   Days   Days   TOTAL
OIG         180     52     14       8      6      4      4      1      1      1      2      0      0      273




Freedom of Information Annual Report — FY 2013                                                                  18
      3.   Requests Granted Expedited Processing
                                       81-           101-   121-   141-   161-   181-   201-   301-
            1–20 21-40     41–60 61–80 100           120    140    160    180    200    300    400    401+
            Days Days      Days Days Days            Days   Days   Days   Days   Days   Days   Days   Days   TOTAL
OIG             0      0       0      0          0      0      0      0      0      0      0      0      0       0




Freedom of Information Annual Report — FY 2013                                                                  19
   D. Pending Requests – All Pending Perfected Requests
               Simple                             Complex                       Expedited Processing
                           Median     Average               Median    Average              Median      Average
               Number      Number     Number      Number    Number    Number    Number     Number      Number
               Pending     of Days    of Days     Pending   of Days   of Days   Pending    of Days     of Days
OIG                0           0           0          6        7         16         0          0          0




Freedom of Information Annual Report — FY 2013                                                                20
   E. Pending Requests – Ten Oldest Pending Perfected Requests
            10th
            Oldest                                                                                           Oldest
            Request                                                                                          Request
            and                                                                                              and
            Number                                                                                           Number
            of Days                                                                                          of Days
            Pending    9th       8th       7th       6th         5th        4th        3rd        2nd        Pending
   OIG          0            0         0         0     9/26/13    9/23/13    9/19/13    9/13/13    8/28/13    7/15/13
                                                           2           5          7          8          23      55




Freedom of Information Annual Report — FY 2013                                                                       21
VIII. REQUESTS FOR EXPEDITED PROCESSING AND REQUESTS FOR FEE WAIVER
     A. Requests for Expedited Processing
                                                                       Number
                                             Median       Average      Adjudicated
                                             Number of    Number of    Within Ten
                Number         Number        Days to      Days to      Calendar
                Granted        Denied        Adjudicate   Adjudicate   Days
  OIG                 0             20             4           4           20




  Freedom of Information Annual Report — FY 2013                                22
   B. Requests for Fee Waiver
                                                   Median         Average
                 Number                            Number of Days Number of Days
                 Granted           Number Denied   to Adjudicate  to Adjudicate
OIG                     0                10              2              3




Freedom of Information Annual Report — FY 2013                                23
IX. FOIA PERSONNEL AND COSTS
                   Personnel                          Costs
                                         Total
                              Number of Number
                   Number of “Equivalent of Full-
                   “Full-Time Full-Time  Time                Litigation-
                   FOIA       FOIA       FOIA     Processing Related     Total
                   Employees” Employees” Staff    Costs      Costs       Costs
 OIG                    3            2            5    286,000   $5000   291,000




 Freedom of Information Annual Report — FY 2013                                  24
X. FEES COLLECTED FOR PROCESSING REQUESTS

                           Total Amount of Fees
                           Collected              Percentage of Total Costs
OIG                                   13,617                 4.76%




Freedom of Information Annual Report — FY 2013                                25
XI. FOIA REGULATIONS
 http://www.hhs.gov/foia/45cfr5.html




 Freedom of Information Annual Report — FY 2013   26
XII. BACKLOGS, CONSULTATIONS, AND COMPARISONS
    A. Backlogs of FOIA Requests and Administrative Appeals
                              Number of Backlogged           Number of Backlogged
                              Requests as of End of Fiscal   Appeals as of End of Fiscal
                              Year                           Year
       OIG                                 2                               0




 Freedom of Information Annual Report — FY 2013                                            27
   B. Consultations on FOIA Requests – Received, Processed, and Pending Consultations
                 Number of                          Number of         Number of
                 Consultations                      Consultations     Consultations
                 Received from                      Received from     Received from
                 Other Agencies    Number of        Other Agencies    Other Agencies
                 that Were         Consultations    that Were         that Were
                 Pending at Your   Received from    Processed by      Pending at Your
                 Agency as of      Other Agencies   Your Agency       Agency as of
                 Start of the      During the       During the        End of the
                 Fiscal Year       Fiscal Year      Fiscal Year       Fiscal Year
OIG                     0                 3                3                 0




Freedom of Information Annual Report — FY 2013                                     28
   C. Consultations on FOIA Requests – Ten Oldest Consultations Received from Other
      Agencies and Pending at Your Agency
           10th
           Oldest                                                            Oldest
           Request                                                           Request
           and                                                               and
           Number                                                            Number
           of Days                                                           of Days
           Pending 9th      8th     7th     6th      5th   4th   3rd   2nd   Pending
OIG           0        0       0      0          0     0     0     0    0       0




Freedom of Information Annual Report — FY 2013                                      29
   D. Comparison of Numbers of Requests from Previous and Current Annual Report –
      Requests Received, Processed, and Backlogged
         (1) Requests Received and Processed
                             Number of Requests           Number of Requests
                             Received                     Processed
                             Number         Number        Number        Number
                             Received       Received      Processed     Processed
                             `During        During        During        During
                             Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year
                             from Last      from          from Last     from
                             Year’s         Current       Year’s        Current
                             Annual         Annual        Annual        Annual
                             Report         Report        Report        Report
OIG                               664             714         656              726




Freedom of Information Annual Report — FY 2013                                       30
         (2) Requests Backlogged

                    Number of Backlogged Requests   Number of Backlogged Requests
                    as of End of the Fiscal Year    as of End of the Fiscal Year from
                    from Previous Annual Report     Current Annual Report
OIG                                9                                2




Freedom of Information Annual Report — FY 2013                                      31
   E. Comparison of Numbers of Administrative Appeals from Previous and Current
      Annual Report – Appeals Received, Processed, and Backlogged
         (1) Appeals Received, Processed
                 Number of Appeals Received         Number of Appeals Processed
                 Number            Number           Number               Number
                 Received          Received         Processed            Processed
                 During Fiscal     During Fiscal    During Fiscal        During Fiscal
                 Year from Last    Year from        Year from Last       Year from
                 Year’s Annual     Current Annual   Year’s Annual        Current Annual
                 Report            Report           Report               Report
OIG                     0                  0              0                    0




         (2) Appeals Backlogged
                    Number of Backlogged            Number of Backlogged
                    Administrative Appeals as of    Administrative Appeals as of End
                    End of the Fiscal Year from     of the Fiscal Year from Current
                    Previous Annual Report          Annual Report
OIG                                0                                 0




Freedom of Information Annual Report — FY 2013                                       32
